                      SPECTO
                 IN            R
             F                     G
         O                             E
     E




                                       N
     C




                                           E
FI




                                           RA
OF




                                               L
                                                   OFFICE OF INSPECTOR GENERAL
                                                       EXPORT-IMPORT BANK
                                                        of the UNITED STATES




Improper Payments Reporting
     Ex-Im Bank Generally Complied with Improper
     Payments Reporting Requirements but Should
      Improve Its Improper Payments Assessment



                                                                 March 14, 2013
                                                                   OIG-AR-13-03
To:         David Sena
            Senior Vice President and Chief Financial Officer

From:       Rebecca Sharek
            Assistant Inspector General for Audits

Subject:    Audit of Export-Import Bank’s (Ex-Im Bank) Compliance with the
            Improper Payments Information Act of 2002 (IPIA) for Fiscal Year (FY)
            2011

Date:       March 14, 2013

This memorandum transmits Audit Report OIG-AR-13-03, “Improper Payments
Reporting: Ex-Im Bank Generally Complied with Improper Payments Reporting
Requirements but Should Improve Its Improper Payments Assessment.” The audit
was initiated to determine whether in FY 2011 Ex-Im Bank complied with IPIA, as
amended by the Improper Payments Elimination and Recovery Act of 2010. We also
evaluated the accuracy and completeness of Ex-Im Bank’s improper payment
reporting and efforts to reduce and recover improper payments in FY 2011.

The audit found that Ex-Im Bank complied with IPIA in that it reported required
information based on the results of its FY 2011 improper payments assessment.
However, Ex-Im Bank should improve its processes for identifying and measuring
its risk of improper payments. We made five recommendations for corrective
action. Management generally concurred with the recommendations and we
consider management’s proposed actions to be responsive. The recommendations
will be closed upon completion and verification of the proposed actions.

We appreciate the courtesies and cooperation extended to us during the audit. If
you have questions, please contact me at (202) 565-3169 or
rebecca.sharek@exim.gov.


cc:     Fred Hochberg, Chairman and President
        John McAdams, Senior Vice President and Chief Operating Officer
        Audit Committee
        Patricia Wolf, Controller
        Joe Sorbera, Office of the Chief Financial Officer
        The Senate Homeland Security and Governmental Affairs Committee
        The House Committee on Oversight and Governmental Reform
        The Comptroller General
        The Controller of the Office of Management and Budget


                  811 Vermont Avenue, NW Washington, D.C. 20571
                     EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


           The Export-Import Bank of the United States (Ex-Im Bank)
           is the official export-credit agency of the United States. Ex-
           Im Bank is an independent, self-sustaining executive
           agency and a wholly-owned U.S. government corporation.
           Ex-Im Bank’s mission is to support jobs in the United States
           by facilitating the export of U.S. goods and services. Ex-Im
           Bank provides competitive export financing and ensures a
           level playing field for U.S. exports in the global
           marketplace.

           The Office of Inspector General, an independent office
           within Ex-Im Bank, was statutorily created in 2002 and
           organized in 2007. The mission of the Ex-Im Bank Office of
           Inspector General is to conduct and supervise audits,
           investigations, inspections, and evaluations related to
           agency programs and operations; provide leadership and
           coordination as well as recommend policies that will
           promote economy, efficiency, and effectiveness in such
           programs and operations; and prevent and detect fraud,
           waste, abuse, and mismanagement.




ACRONYMS
AFR        Agency Financial Report
FY         Fiscal Year
GAO        Government Accountability Office
IPERA      Improper Payments Elimination and Recovery Act of 2010
IPIA       Improper Payments Information Act of 2002
OCFO       Office of the Chief Financial Officer
OIG        Office of Inspector General
OMB        Office of Management and Budget
PAR        Performance and Accountability Report



                                AUDIT REPORT OIG-AR-13-03
                                 EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Executive Summary                                  Ex-Im Bank Generally Complied with Improper
                                                   Payments Reporting Requirements but Should
                                                   Improve Its Improper Payments Assessment
                                                   Audit Report OIG-AR-13-03
                                                   March 14, 2013


Why We Did This Audit                        What We Found
Improper payments are payments made          Ex-Im Bank complied with IPIA, as amended by IPERA, in that it
in the wrong amount, to the wrong            reported all required information based on the results of its FY
entity, or for the wrong reason. They        2011 improper payments assessment. In addition, Ex-Im Bank has
can result from processing errors, a lack    established a number of preventive and detective controls and due
of information, or fraud. In accordance
                                             diligence requirements intended to minimize the possibility of
with the Improper Payments
Information Act of 2002 (IPIA), as
                                             improper payments. However, we identified the following
amended by the Improper Payments             concerns which we believe reduce the overall usefulness and
Elimination and Recovery Act of 2010         reliability of Ex-Im Bank’s improper payments assessment:
(IPERA), Inspectors General are                   The Office of the Chief Financial Officer (OCFO) incorrectly
required to annually review their
                                                   concluded that all returned or voided wire and check
agency’s compliance with improper
payments legislation and evaluate                  payments are inherently improper and, moreover, were the
agency efforts to assess, report, and              only improper payments made by Ex-Im Bank. This led to
reduce improper payments. As a result,             measuring the Bank’s risk of improper payments against a list
we reviewed the Export-Import Bank’s               of transactions that were largely not improper as defined by
(Ex-Im Bank or the Bank) improper                  IPIA, and supported the OCFO’s decision not to test controls
payments assessment and reporting                  intended to prevent or detect improper payments.
activities for fiscal year (FY) 2011.
                                                  The OCFO relied on the results of a risk assessment
What We Recommended                                questionnaire that may not have accurately reflected Ex-Im
                                                   Bank’s risk of improper payments.
To improve Ex-Im Bank’s processes for
identifying and assessing its risk of             Although OMB recognizes that improper payments may
improper payments, we recommended                  include payments based on incomplete, inaccurate, or
that the Bank (1) revise its procedures            fraudulent information, the OCFO did not include in its
to correctly calculate improper                    improper payments assessment certain export credit
payments rates, (2) reconsider the                 insurance claims later determined to be fraudulent. In FY
results of its FY 2011 risk assessment,            2011 alone, the Office of Inspector General – Office of
(3) modify its risk assessment scoring             Investigations determined that such claims totaled
method, (4) include in its assessment              $1.3 million.
insurance claims paid based on fraud or
obtain Office of Management and              Given (1) internal control weaknesses we have previously
Budget (OMB) written approval to             identified, including those in Ex-Im Bank’s key information
continue excluding such payments, and        technology applications, some of which are used to process
(5) consider the cost effectiveness and      payments, and (2) the weaknesses we observed in the OCFO’s FY
value of conducting recapture audits         2011 improper payments assessment, we believe Ex-Im Bank’s
and additional periodic testing for
                                             true risk of significant improper payments is unknown. As a result,
improper payments across all program
areas. Management generally                  its FY 2011 improper payments reporting may be inaccurate and
concurred with the recommendations,          incomplete, and its efforts to reduce and recover improper
which will be closed upon completion         payments may be inadequate.
and verification of corrective action.
                                             For additional information, contact the Office of the Inspector General at
                                             (202) 565-3908 or visit www.exim.gov/oig.


                                            AUDIT REPORT OIG-AR-13-03
                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




TABLE OF CONTENTS


INTRODUCTION
  Background __________________________________________________1
  Objectives ____________________________________________________6

RESULTS
  Finding: Ex-Im Bank Should Improve Its Processes for Identifying
     and Measuring Its Risk of Improper Payments ____________________7
     Recommendations, Management’s Response, and Evaluation of
     Management’s Response ____________________________________14

APPENDIX A
  Scope and Methodology ________________________________________18
  Review of Internal Controls _____________________________________19
  Federal Laws, Regulations, Policies, and Guidance ___________________19
  Prior Coverage _______________________________________________19

APPENDIX B
  Analysis of Ex-Im Bank’s FY 2011 Improper Payment Log _____________21

APPENDIX C
  Ex-Im Bank’s Improper Payment Risk Assessment Questionnaire _______22

APPENDIX D
  Management Comments _______________________________________25




                               AUDIT REPORT OIG-AR-13-03
                                      EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL



                                                                                         INTRODUCTION


Background
  Each year, the Federal Government wastes billions of taxpayer dollars on improper
  payments to individuals, organizations, and contractors.1 According to the Office of
  Management and Budget (OMB), an improper payment is any payment that (1) should not
  have been made; (2) was made in an incorrect amount, to an ineligible recipient, for
  ineligible goods or services, or for goods or services not received; or (3) lacks sufficient
                                                   documentation to determine whether it is
     The term “payment” means payment or transfer  proper.  2 Improper payments may result from

     of Federal funds (including cash, loans, loan inadequate recordkeeping, inaccurate eligibility
     guarantees, and insurance subsidies) to any   determinations, inadvertant processing errors,
     non-Federal person or entity made by or on    lack of timely and reliable information to confirm
     behalf of a Federal agency, contractor, or    payment accuracy, or fraud.
       grantee. For purposes of direct loan and loan
       guarantee programs, such as those   To reduce improper payments, Congress passed
       administered by the Export-Import Bank,
                                           the Improper Payments Information Act of 2002
       improper payments may include disbursements
                                           (IPIA).3 Congress amended IPIA by enacting the
       to borrowers, intermediaries, or third-parties for
                                           Improper Payments Elimination and Recovery
       defaults, delinquencies, interest or other
                                           Act of 2010 (IPERA).4,5 As amended, IPIA
       subsidies, or other payments based on
                                           requires agencies to review their programs and
       incomplete,     inaccurate,    or      fraudulent
       information.
                                           activities each fiscal year (FY) and identify those
                                           susceptible to significant improper payments.6
  Agencies must report in their annual Performance and Accountability Report (PAR) or
  Agency Financial Report (AFR) estimated significant improper payments and actions to
  reduce them. In addition, Inspectors General are required to (1) determine whether their
  respective agencies are compliant with IPIA and (2) evaluate the accuracy and
  completeness of agency reporting and performance in reducing and recapturing improper
  payments. To assist agencies and Inspectors General, OMB issued government-wide
  guidance in 2011.7

  1   M-11-16, “Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123,” April 14, 2011.
  2   OMB Circular A-123, “Management’s Responsibility for Internal Control,” Appendix C.
  3   Public Law 107-300, November 26, 2002.
  4   Public Law 111-204, July 22, 2010.
  5   From this point forward, “IPIA” will be used to refer to IPIA as amended by IPERA.
  6 “Significant improper payments” are gross annual improper payments in the program under review
  exceeding (1) both 2.5 percent of program outlays and $10 million of all program payments made during the
  fiscal year reported or (2) $100 million regardless of the improper payment percentage of total program
  outlays.
  7   M-11-16, “Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123,” April 14, 2011.
                                                    AUDIT REPORT OIG-AR-13-03
                                                               1
                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


OMB Guidance. According to OMB, there are four steps in determining whether an
agency’s risk of improper payments is significant and to provide valid annual estimates of
significant improper payments. Unless an agency has specific written approval from OMB
to deviate from these steps, agencies are required to follow them.

In Step 1, the agency must institute a systematic method to review all programs and
activities and identify those that are susceptible to significant improper payments. This
method can be a quantitative evaluation based on a statistical sample or it can take into
account risk factors likely to contribute to significant improper payments. At a minimum,
the risk factors should include:

   •   whether the program or activity is new to the agency;

   •   the complexity of the program or activity, particularly with respect to determining
       correct payment amounts;

   •   the volume of payments made annually;

   •   whether payments or payment eligibility decisions are made outside of the agency;

   •   recent major changes in program funding, authorities, practices, or procedures;

   •   the level, experience, and quality of training for personnel responsible for making
       program eligibility determinations or certifying that payments are accurate;

   •   significant deficiencies cited in audit reports of the agency, including the agency
       Inspector General or the Government Accountability Office (GAO); and

   •   results from prior improper payment work.

If no programs are identified in Step 1 as susceptible to significant improper payments (i.e.,
the improper payment rate of each program is determined to be less than $100 million or
below both 2.5 percent of total program outlays and $10 million of all program payments
made during the fiscal year), no further analysis
is required. However, for each program                  According to OMB, improper payment rates
identified as susceptible to significant improper       established in Step 1 should be measures of
payments, the agency must use an OMB-                   dollars rather than occurrences. In other
approved methodology in Step 2 to test a sample         words, the improper payment rate should be
of transactions and obtain a statistically valid        the amount in improper payments divided by
estimate of the annual amount of improper               the amount in program outlays for a given
payments. Once testing is complete and the              program in a given fiscal year.
annual estimated amount of improper payments
is derived, Step 3 requires the agency to develop and implement a corrective action plan
that identifies root causes and establishes reduction targets as well as accountability for
reducing improper payments. In Step 4, the agency must report in its annual PAR or AFR
its estimated annual improper payments and its progress in reducing them.


                                    AUDIT REPORT OIG-AR-13-03
                                                 2
                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


In addition to analyzing susceptibility to significant improper payments, IPIA requires
agencies to conduct payment recapture audits for each program and activity that expends
$1 million or more annually if conducting such audits would be cost effective. OMB defines
a payment recapture audit as a review and analysis of an agency’s or program’s accounting
and financial records, supporting documentation, and other pertinent information
supporting its payments, that is specifically designed to identify overpayments.

Export-Import Bank’s Process for Identifying and Measuring its Risk of Improper
Payments. To identify and measure its risk of significant improper payments, the Export-
Import Bank (Ex-Im Bank or the Bank) Office of the Chief Financial Officer (OCFO):
(1) reviews the Bank’s payment types, (2) compares the total amount of transactions
captured on Ex-Im Bank’s annual Improper Payment Log with IPIA thresholds for
significant improper payments, (3) compiles the results of risk assessment questionnaires
that assess each payment type, and (4) documents the internal controls that prevent and
detect improper payments along with a summary of the assessment of the Bank’s risk.
With OMB’s approval, Ex-Im Bank performs its improper payments assessment one year in
arrears, meaning the analysis for FY 2011 is performed in FY 2012 and reported in Ex-Im
Bank’s FY 2012 AFR.

    Review of Ex-Im Bank Payments. The OCFO reviewed Ex-Im Bank’s FY 2011
payments, which totaled $2.7 billion, and identified three payment types:
(1) Administrative Expenses, (2) Claim Payments, and (3) Loan Disbursements. Each
payment type, which the OCFO defined as a program for the purposes of IPIA, is described
below.

   (1) Administrative Expenses – Ex-Im Bank has three categories of administrative
       expenses: compensation and benefits, rental payments on its Washington, D.C.
       Headquarters building, and contract and invoice payments. Ex-Im Bank’s
       compensation and benefits are processed by the General Services Administration’s
       Kansas City, Missouri payroll processing center. In addition, compensation,
       benefits, and rental payments are paid to the General Services Administration
       through the intra-government payment system. As intra-governmental
       transactions, these payments are excluded from the Bank’s improper payments
       assessment. The remainder of Ex-Im Bank’s 6,301 administrative disbursements
       were contract and invoice payments totaling $26.1 million. According to the OCFO,
       the two largest components of these payments were technology- and travel-related
       expenses.

   (2) Claim Payments – Ex-Im Bank makes claim payments under its Loan Guarantee and
       Export Credit Insurance programs. Under the Loan Guarantee Program, the Bank
       guarantees to a lender that, in the event of a payment default by the borrower,
       Ex-Im Bank will pay to the lender the outstanding principal and interest on the loan.
       Specifically, the Bank’s medium term guarantees provide unconditional coverage in
       the event of default. According to the OCFO, except in certain instances of
       noncompliance with the terms of the guarantee agreement between the Bank and
       the guaranteed party, Ex-Im Bank cannot deny payment of the claim even if the

                                  AUDIT REPORT OIG-AR-13-03
                                              3
                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


   borrower provided fraudulent information to obtain the underlying credit from the
   guaranteed lender. Therefore, the OCFO does not include such payments in its
   improper payments assessment.

   Under the Export Credit Insurance Program, Ex-Im Bank insurance covers
   exporters’ risk of buyer nonpayment for commercial and certain political reasons.
   In certain instances, Ex-Im Bank’s insurance policies also provide unconditional
   coverage in the event of default. Otherwise, Ex-Im Bank insurance policies
   specifically state that if the insured makes knowingly false, misleading, or
   fraudulent statements, reports, or claims, the policy becomes void and all claims are
   forfeited. Therefore, payments for these export credit insurance claims that are
   later proven to be fraudulent meet the IPIA definition of improper payments.

   The Claims and Recoveries Section of the Office of the Treasurer is responsible for
   processing requests for disbursements when paying claims on either loan
   guarantees or export credit insurance, expenses related to claims, and a
   participant’s share of recoveries or related expenses. During FY 2011, Ex-Im Bank
   made 657 loan guarantee and export credit insurance claim payments totaling
   $118.5 million.

(3) Loan Disbursements – Ex-Im Bank offers fixed-rate loans directly to foreign buyers
    of U.S. goods and services. Once a loan transaction becomes legally operative, the
    Operations and Data Quality Division reviews supporting documentation prior to
    approving a disbursement request. After their review, Operations and Data Quality
    personnel sign the disbursement approval and send it and supporting
    documentation to the Program Accounting and Servicing Division. Program
    Accounting and Servicing staff apply the appropriate fees, print the disbursement
    voucher, and submit it to a certifying officer who signs the voucher and forwards it
    to the Cash Control Division for remittance of funds. Although Ex-Im Bank made
    fewer loan disbursements in FY 2011 than it did administrative or claim payments,
    due to the large amount of each transaction, loan disbursements comprised
    95 percent of the value of the Bank’s total payments for the year. Specifically, Ex-Im
    Bank made approximately 324 payments designated as loan disbursements worth
    about $2.6 billion, while total FY 2011 payments equaled $2.7 billion.

The following chart shows the value of Ex-Im Bank’s FY 2011 payments by program
area.




                               AUDIT REPORT OIG-AR-13-03
                                           4
                           EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL



                        Distribution of FY 2011 Payments
                                              (in millions)
                   Administrative Expenses       Claim Payments     Loan Disbursements

                                       $26.11, 1%          $118.46, 4%




                                          $2,589.68,
                                             95%




       Chart 1. Ex-Im Bank’s FY 2011 payments by program area.
       Source: Office of Inspector General summary of data received from the Ex-Im Bank OCFO.

        Ex-Im Bank’s Improper Payment Log. To determine whether Ex-Im Bank’s risk of
improper payments is significant, the OCFO creates and evaluates an Improper Payment
Log and compares it to IPIA thresholds. As described in the Bank’s internal guidance for
identifying and assessing improper payments – “Ex-Im Bank Process and Procedures for
Improper Payments” – the Improper Payment Log is produced by the Financial Reporting
Office and maintained by the Cash Control Supervisor. Specifically, Financial Reporting
Office personnel input on a spreadsheet titled “Improper Payment Log” those Ex-Im Bank
wire and check payments that were returned by the U.S. Treasury or U.S. Post Office or
were voided by the Bank during the fiscal year. According to the OCFO, all returned wires
and returned or voided checks are improper payments as defined by IPIA and, moreover,
represent the full population of actual improper payments made by Ex-Im Bank. Therefore,
staff calculates the amount of returned wires and returned or voided checks as a
percentage of all program outlays to determine if the total amount exceeds the IPIA
threshold for significant improper payments. If the total amount of transactions from the
Improper Payment Log does not exceed IPIA thresholds, the OCFO takes no further action
to test internal controls or identify other possible improper payments. According to Ex-Im
Bank’s internal guidance, this approach “tests all payments, which is more robust than the
sampling method allowed for in OMB Memorandum M-11-16.”

                                                For FY 2011, Ex-Im Bank’s Improper Payment
  To be considered significant, improper        Log included 144 payments – 66 returned wires
  payments must exceed $100 million or both     and 78 returned or voided checks – totaling
  2.5 percent of total program outlays and      $3.7 million. The OCFO determined that this
  $10 million of all program payments made      amount did not exceed IPIA thresholds for
  during the fiscal year.                       significant improper payments. A summary of
                                                the FY 2011 Improper Log is included in
                                                Appendix B.

                                       AUDIT REPORT OIG-AR-13-03
                                                       5
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


          Ex-Im Bank’s Improper Payments Risk Assessment Questionnaire. In addition
  to assessing the results of the Improper Payment Log, Ex-Im Bank’s Financial Reporting
  Office asked key employees from each department involved in the Bank’s disbursement
  process to complete a questionnaire based on FY 2011 disbursement activities. The
  questionnaire – which was developed by KPMG after an FY 2008 internal audit of Ex-Im
  Bank’s improper payment processes and procedures – includes 60 questions that address
  each of the 5 widely accepted components of internal control (control environment, risk
  assessment, control activities, information and communication, and monitoring).8 The
  Financial Reporting Office distributed four copies of the questionnaire: one for
  administrative expenses, one for claim payments, and two for the loan disbursement
  process (one for the operations phase of the process and one for the servicing phase). After
  scoring the four responses received, the OCFO concluded that Ex-Im Bank has a low risk of
  improper payments in all three programs. Ex-Im Bank’s risk assessment questionnaire is
  included in Appendix C.

         Ex-Im Bank’s Risk Assessment Summary. The OCFO also issued an FY 2011 risk
  assessment summary that described the cash disbursement process and documented the
  internal controls that prevent and detect improper payments. The summary stated that Ex-
  Im Bank “has a strong system of internal controls in place to help prevent improper
  payments and to detect them should they occur.” In addition, the summary noted that all
  Ex-Im Bank FY 2011 risk assessment questionnaires showed that the risk of significant
  improper payments was low and “actual identified improper payments [from the FY 2011
  Improper Payment Log] were approximately $3.7 million.” The summary concluded that,
  “Because of the assessment of a low risk of improper payments and the small amount of
  known improper payments, the Bank has not established a formal recapture audit plan.
  However, the Bank does actively pursue recovery of any payment that has been identified
  as being made improperly. In FY 2011, 100% of the $3.7 million improper payments were
  recovered.” As a result, the OCFO determined that no additional action was warranted to
  assess or reduce Ex-Im Bank’s FY 2011 improper payments or test controls intended to
  prevent or detect such payments. The results of Ex-Im Bank’s FY 2011 improper payments
  assessment were reported in the Bank’s 2012 AFR, which reiterated the low risk of
  improper payments.

Objectives
  Our objectives were to determine whether Ex-Im Bank was compliant with IPIA, as
  amended by IPERA, and to evaluate the accuracy and completeness of Ex-Im Bank’s
  improper payment reporting and efforts to reduce and recover improper payments for FY
  2011. See Appendix A for details of the audit’s scope and methodology; our review of
  internal controls; applicable federal laws, regulations, policies, and guidance; and a
  description of prior audit coverage.




  8 “Export-Import Bank of the United States 2008 Internal Audit Report, Improper Payment Information Act
  (IPIA),” April 30, 2009 (KPMG LLP).

                                         AUDIT REPORT OIG-AR-13-03
                                                      6
                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL



                                                                               RESULTS


Finding: Ex-Im Bank Should Improve Its Processes for Identifying
and Measuring Its Risk of Improper Payments
  Ex-Im Bank complied with IPIA, as amended by IPERA, in that it reported all required
  information based on the results of its FY 2011 improper payments assessment. In
  addition, Ex-Im Bank has established a number of preventive and detective controls and
  due diligence requirements intended to minimize the possibility of improper payments.
  However, we identified the following concerns which we believe reduce the overall
  usefulness and reliability of Ex-Im Bank’s assessment:

        The OCFO incorrectly concluded that all returned or voided wire and check
         payments are inherently improper and, moreover, were the only improper
         payments made by Ex-Im Bank. This led to measuring the Bank’s risk of improper
         payments against a list of transactions that were largely not improper as defined by
         IPIA, and supported the OCFO’s decision not to test controls intended to prevent or
         detect improper payments.

        The OCFO relied on the results of a risk assessment questionnaire that may not have
         accurately reflected Ex-Im Bank’s risk of improper payments.

        Although OMB recognizes that improper payments may include payments based on
         incomplete, inaccurate, or fraudulent information, the OCFO did not include in its
         improper payments assessment certain export credit insurance claims later
         determined to be fraudulent. In FY 2011 alone, the Office of Inspector General (OIG)
         – Office of Investigations determined that such claims totaled $1.3 million.

  Ex-Im Bank’s FY 2011 improper payments risk assessment summary documented a
  number of controls intended to minimize the possibility of improper payments.
  Additionally, based on its assessment, the OCFO concluded that Ex-Im Bank’s risk of
  improper payments was low and determined that it was not cost effective or necessary to
  conduct payment recapture audits, perform additional steps to identify or reduce improper
  payments, or test those internal controls intended to prevent or detect them. However,
  given (1) internal control weaknesses we have previously identified, including those in
  Ex-Im Bank’s key information technology applications, some of which are used to process
  payments and applications for Ex-Im Bank products, and (2) the weaknesses we observed
  in the OCFO’s FY 2011 improper payments assessment, we believe Ex-Im Bank’s true risk
  of significant improper payments is unknown. As a result, its FY 2011 improper payments
  reporting may be inaccurate and incomplete, and its efforts to reduce and recover
  improper payments may be inadequate.



                                    AUDIT REPORT OIG-AR-13-03
                                                7
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Ex-Im Bank Complied With IPIA Reporting Requirements
OMB provides specific guidance on what each agency Inspector General should review to
determine if an agency is complaint with IPIA. The table below summarizes the IPIA
requirements and the results of our review of Ex-Im Bank’s compliance.


                      IPIA Requirement                            Yes/No/Not
                      Did the agency . . .                        Applicable          Comments
                                                                                Ex-Im Bank’s FY 2012
   Publish a PAR or AFR for the most recent fiscal year and                     AFR can be accessed at:
   post that report and any accompanying materials required           Yes       http://www.exim.gov/a
   by OMB on the agency website?                                                bout/library/reports/an
                                                                                nualreports/2012/
   Conduct a program-specific risk assessment for each
                                                                      Yes
   program or activity?
                                                                                Ex-Im Bank did not
   Publish improper payment estimates for all programs and
                                                                      Not       identify any programs as
   activities identified as susceptible to significant improper
                                                                   Applicable   susceptible to significant
   payments as required?
                                                                                improper payments.
                                                                                Ex-Im Bank did not
   Publish programmatic corrective action plans in the PAR            Not       identify any programs as
   or AFR as required?                                             Applicable   susceptible to significant
                                                                                improper payments.
                                                                                Ex-Im Bank did not
   Publish and meet annual reduction targets for each
                                                                      Not       identify any programs as
   program assessed to be at risk and measured for improper
                                                                   Applicable   susceptible to significant
   payments?
                                                                                improper payments.
   Report a gross improper payment rate of less than                            Ex-Im Bank did not
   10 percent for each program and activity for which an              Not       identify any programs as
   improper payment estimate was obtained and published            Applicable   susceptible to significant
   in the PAR or AFR?                                                           improper payments.
                                                                                Ex-Im Bank does not
                                                                                conduct recapture
                                                                                audits and reported in
   Report information on its efforts to recapture improper            Not
                                                                                its FY 2012 AFR that,
   payments?                                                       Applicable
                                                                                based on its assessment,
                                                                                no further action was
                                                                                required under IPIA.


  Table 1. Summary of Ex-Im Bank’s compliance with IPIA reporting requirements.
  Source: OMB Circular A-123, “Management’s Responsibility for Internal Control,” Appendix C and OIG
  analysis.

Although Ex-Im Bank complied with IPIA reporting requirements, we identified specific
concerns related to the Bank’s improper payments assessment.




                                         AUDIT REPORT OIG-AR-13-03
                                                       8
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Payments Were Incorrectly Identified as Improper
The FY 2011 Improper Payment Log was a central component of Ex-Im Bank’s improper
payments assessment. The OCFO concluded that all payments included on the Log after
being returned by the U.S. Treasury or U.S. Post Office or being voided by Ex-Im Bank were
inherently improper and, moreover, represented the full population of improper payments
made by the Bank. Although IPIA and OMB specifically define when a payment is
considered improper, OCFO staff did not consider the reason the wires and checks were
returned or voided when making their determination. Instead, staff compared the total
amount of payments from the Improper Payment Log with the total amount of program
outlays for the fiscal year. Because the amount of transactions from the Log – $3.7 million –

       Improper Payments are            Should not have been made,
       Payments That:
                                        Were made in an incorrect amount,

                                        Were made to an ineligible recipient,

                                        Were for ineligible goods or services or eligible goods or services not
                                        received, or

                                        Lack sufficient documentation to determine if they are proper.

      Table 2. Definition of improper payments.
      Source: Public Law 107-300, November 26, 2002; and OMB Circular A-123, “Management’s
      Responsibility for Internal Control,” Appendix C.

did not exceed the IPIA threshold for significant improper payments in FY 2011, the OCFO
determined that it was not cost effective or necessary to take additional action to identify
other possible improper payments or calculate improper payment rates, as required by
OMB. Furthermore, because all payments on the Improper Payment Log were returned to
or voided by Ex-Im Bank, the OCFO reported that it successfully recovered all FY 2011
improper payments, which supported the decision not to conduct payment recapture
audits or test controls intended to prevent or detect improper payments.

However, we determined that the Improper Payment Log largely represented a list of
transactions that were not improper as defined by IPIA. Specifically, 61 of the 66 wire
payments on the Log were returned because the payee account number or other payment
information was incorrect, therefore, the payments could not be processed. In addition,
71 of the 78 checks on the Log were returned or voided because the payee address was
incorrect and the checks were undeliverable or never received by the payee. In these
instances, Ex-Im Bank issued replacement checks and voided the original, missing checks,
deeming them improper payments.

We reviewed supporting documentation for 25 payments from the Improper Payment Log
and verified that only 3 met the IPIA definition for improper payments.9 Specifically, in two

9   Appendix A describes our sampling methodology.

                                        AUDIT REPORT OIG-AR-13-03
                                                        9
                           EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


instances, payments were returned because Ex-Im Bank paid the wrong vendors. The
remaining payment was improper because there was insufficient documentation to
determine whether it was proper. The other 22 payments included in our review were
incorrectly classified as improper because, in each instance, Ex-Im Bank was obligated to
make the payment and was paying the correct amount to eligible recipients for eligible
goods or services received. For example, Ex-Im Bank deemed two checks improper
because they were returned by the U.S. Post Office as undeliverable due to incorrect payee
addresses. In another instance, a vendor who received an Ex-Im Bank check requested to
be paid by wire instead. So Ex-Im Bank voided the check, recorded it as an improper
payment, and then paid the vendor with a wire. When seven other checks were never
received by the payees, Ex-Im Bank voided the checks, classified them as improper, and
then replaced them with new checks. The 12 remaining payments in our sample were wire
payments that were returned to Ex-Im Bank and deemed improper by the OCFO because
the Bank used outdated routing transit numbers and, therefore, the payments could not be
processed.

OCFO personnel told us that they considered missing checks or payments sent to the wrong
address improper because they could have been intercepted by the wrong recipient and
cashed. In addition, they believed that inclusion of such payments on the Improper
Payment Log merely overstated Ex-Im Bank’s improper payments, making the true risk of
significant improper payments even lower than reported because they reasoned that, if
those payments were not improper, then the Bank did not make any improper payments.
However, the OCFO has never conducted testing to identify other possible improper
payments or calculate improper payment rates. Although payment processing errors were
made resulting in returned or voided payments, most of the payments on the Improper
Payment Log were not truly improper. However, as a result of flawed methodology or a
lack of understanding, the OCFO incorrectly categorized payments as improper then used
the total of those payments to measure Ex-Im Bank’s risk of significant improper payments
and to determine that additional actions were not warranted.

Appendix B summarizes all 144 payments included on the FY 2011 Improper Payment Log.


Risk Assessment Questionnaire May Not Have Accurately Reflected Risk
The OCFO’s conclusion of low risk and decision not to conduct additional quantitative tests
or calculate improper payment rates beyond what was captured on the Improper Payment
Log was corroborated by the results of Ex-Im Bank’s risk assessment questionnaires. To
assess the risk in Ex-Im Bank’s programs, the Financial Reporting Office requested and
received four responses to its questionnaire: one for administrative expenses, one for claim
payments, and two for the loan disbursement process (one for the operations phase of the
process and one for the servicing phase).10 Although the FY 2011 improper payments risk
10Once a loan becomes legally operative, the Operations and Data Quality Division reviews supporting
documentation prior to approving a disbursement request. Operations and Data Quality personnel send the
signed disbursement approval and supporting documentation to Program Accounting and Servicing staff,
who apply appropriate fees and print the disbursement voucher for review by a certifying officer prior to
remittance of funds.
                                       AUDIT REPORT OIG-AR-13-03
                                                    10
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


assessment summary states that all questionnaires provided evidence of “strong internal
controls” and showed that Ex-Im Bank’s risk of significant improper payments was low, we
noted that the risk assessment questionnaire for the operations phase of the loan
disbursement process disclosed that almost half of the controls assessed (27 out of 60) and
intended to prevent or detect improper payments were either weak or were not applicable.

Specifically, the completed questionnaire indicated elevated risk for 9 questions and
responses of “Not Applicable” for an additional 18 questions. These 27 questions related to
key controls regarding Ex-Im Bank’s internal control environment, and risk assessment,
internal control, information and communication, and monitoring activities. For example,
responses that suggested elevated risk indicated that:

        there is an emphasis on expediting payments within the process;

        there are anticipated changes in the program;

        there are no mechanisms in place to ensure that personnel understand the purpose
         of internal control activities; and

        there are risks from business process redesign, disruption of information systems
         processing, and a lack of backup systems.

Also, controls deemed not applicable included but were not limited to those for assessing
risks arising from changing needs, new legislation, downsizing, and a lack of training;
monitoring of sub-recipients; automated systems; and addressing prior audit findings.

However, the OCFO did not eliminate the 18 items reported as “Not Applicable” when it
scored the questionnaire. Instead, staff scored the 9 responses that indicated elevated risk
out of a total of 60 questions (or 15 percent), resulting in a score of low risk according to
the OCFO’s scoring method.11 Had staff removed from the calculation the 18 factors that
did not apply, they would have scored the 9 responses that indicated elevated risk out of a
total of 42 questions (or 21 percent), thereby recognizing medium risk of improper
payments occurring in the operations phase of the loan disbursement process.

When considering the overall risk to the loan disbursement process, medium risk in the
operations phase would likely be mitigated to some degree by the low risk documented on
the questionnaire for the servicing phase. However, potential elevated risk of improper
loan disbursements is significant because loan disbursements comprised 95 percent, or
$2.6 billion, of Ex-Im Bank’s FY 2011 payments. As a result, we question whether the loan
disbursement program and, therefore, overall agency risk of improper payments is truly
low.


11 According to the OCFO’s scoring method, if no more than 18 percent of all questions answered indicate
elevated risk, the overall risk of improper payments is low. A score between 20 percent and 47 percent of all
questions answered equals medium risk. A score of 48 percent or more of all questions answered equals high
risk.

                                        AUDIT REPORT OIG-AR-13-03
                                                     11
                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Appendix C includes Ex-Im Bank’s improper payment risk assessment questionnaire and
further explains how the OCFO scored the questionnaires to determine risk.


Improper Payments Assessment Did Not Include Export Credit Insurance
Claims Later Determined to Be Fraudulent
According to OMB, improper payments can result from fraud. In addition, certain Ex-Im
Bank export credit insurance policies are void and all claims are forfeited in the event of
fraud. For example, while Ex-Im Bank may be obligated to provide unconditional coverage
to commercial lenders who have fulfilled Ex-Im Bank’s due diligence requirements, policies
are void and all claims are forfeited in certain instances when the beneficiary is an exporter
who has committed fraud. However, the OCFO did not include such claims in its improper
payments assessment. In fact, the FY 2011 improper payments risk assessment summary
stated that, “In FY 2011, Ex-Im [Bank] did not identify any fraudulent payments.”

Beginning with the semiannual report for the period ended September 30, 2009, the OIG
has reported to Ex-Im Bank management the increased risk of fraud in the Bank’s Export
Credit Insurance Program.12 Each semiannual report, which is transmitted to Bank
management and Congress and made publicly available, explains that the Export Credit
                                                     Insurance Program is particularly susceptible to
   Export Credit Insurance Program. This             fraud schemes by foreign borrowers, U.S.-based
   Program offers protection in the form of several  exporters, and other transaction participants.
   different insurance policy types to U.S.          Specifically, criminal activity exploits certain
   exporters and their lenders against non-          processes within the Program in order to induce
   payment by foreign buyers due to commercial       Ex-Im Bank to approve insurance coverage. In
   and political risks. Export credit insurance      addition to describing these risks, the
   allows exporters to increase export sales by      semiannual reports for the period between
   limiting international repayment risk, offering
                                                     April 1, 2010 and September 30, 2012 – covering
   credit to international buyers, and enabling
                                                     the FY 2011 period assessed by the OCFO –
   exporters to access working capital funds. One
                                                     describe the successful efforts of the OIG Office
   fraudulent scheme to exploit the Program
   involves the falsification of shipping records to
                                                     of Investigations in investigating specific
   convince Ex-Im Bank that the described goods      fraudulent claims paid by the Export Credit
   have been shipped when in fact they have not.     Insurance Program. For FY 2011 alone, the
                                                     Office of Investigations identified $1,324,073 in
                                                     fraudulent insurance claims paid.

When asked why they did not include in Ex-Im Bank’s improper payments assessment
those insurance claims paid and later identified as fraudulent, OCFO personnel stated that
it would be difficult to accurately measure and report such claims within the framework of
the improper payments assessment cycle. Specifically, they noted that IPIA requires
assessing and reporting improper payments within one fiscal year yet a claim may be paid
and then determined to be fraudulent years later. In addition, Claims and Recoveries


12OIG semiannual reports can be accessed at: http://www.exim.gov/oig/reports/semiannual-reports-and-
testimony.cfm.

                                     AUDIT REPORT OIG-AR-13-03
                                                  12
                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


personnel stated that Ex-Im Bank does not track the amount of fraud within a given
program, making it difficult to measure for the purposes of the improper payments
assessment.

While we recognize the difficulty of accurately matching claims authorized, paid, and
proven fraudulent from year to year, we believe Ex-Im Bank should make reasonable
efforts to include fraudulent insurance claims in its improper payment assessment. At a
minimum, including in the Bank’s improper payments analysis the information made
publicly available and resulting from OIG investigations would provide a more accurate and
complete estimate of the risk of fraudulent, improper payments so that corrective actions,
if warranted, can be implemented.

Prior Year Recommendation. As part of our FY 2010 evaluation of Ex-Im Bank’s
compliance with improper payments legislation, we reported that the Bank did not include
in its assessment claim payments that were later determined to have been based on
fraudulent information.13 As a result, we recommended that Ex-Im Bank include in its
improper payments risk assessment claim payments based on fraudulent information and
determine whether additional steps should be taken in accordance with OMB guidance.
Management did not concur with the recommendation and noted that Ex-Im Bank
guarantees provide unconditional coverage in the event of default. Further, management
stated that, under the term of a guarantee agreement, Ex-Im Bank is required to make the
claim payment even if the borrower obtained the underlying credit from the guaranteed
lender by providing fraudulent information and/or documentation to the lender.
Management provided OMB the rationale for excluding fraudulent claims paid in
association with loan guarantees and obtained OMB’s verbal concurrence. However, the
issue of whether to include in Ex-Im Bank’s improper payments assessment those
insurance claims paid based on fraud remains unresolved.


Ex-Im’s Risk of Significant Improper Payments is Unknown
During the audit, OCFO personnel cited the existence of strong internal controls as a factor
in Ex-Im Bank’s assessment of its risk of significant improper payments. The FY 2011
improper payments risk assessment summary documents those preventive and detective
controls and due diligence requirements that the OCFO believes minimize the possibility of
improper payments. In addition, the summary states that, as part of Ex-Im Bank’s annual
financial statement audit, the independent public accountant samples and tests all
categories of payments and, although the purpose of this testing is to judge the accuracy of
the financial statements and not compliance with IPIA, testing has not revealed material
improper payments over the years.




13“Evaluation of Ex-Im Bank’s Compliance with the Improper Payments Elimination and Recovery Act of
2010” (OIG-EV-12-01, March 12, 2012). The report can be accessed at: www.exim.gov/oig/upload/Final-
Report-Complete-120312.pdf.
                                     AUDIT REPORT OIG-AR-13-03
                                                  13
                           EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


However, we determined that the independent
public accountant responsible for the most             “My Administration is committed to reducing
recent (FY 2012) annual financial statement            payment errors and eliminating waste, fraud,
audit did not test for improper payments. Also,        and abuse in Federal programs . . . agencies
recent OIG audits have cited internal controls         should use every tool available to identify and
weaknesses likely to increase losses due to            subsequently reclaim the funds associated with
errors or fraud. These include weaknesses in           improper payments."
controls related to (1) key information                   – President Obama, Memorandum of
technology applications, including those used to       March 10, 2010, “Finding and Recapturing
process payments and applications for Ex-Im            Improper Payments,” Federal Register, Vol. 75,
Bank products, and (2) the Export Credit               No. 49.
Insurance Program, including weaknesses that
could increase the risk of financial loss through claims or issuance of insurance policies
based on erroneous and potentially fraudulent information.14,15 Given these internal
control weaknesses and the weaknesses we observed in the OCFO’s FY 2011 improper
payments assessment, we believe Ex-Im Bank’s true risk of significant improper payments
is unknown. As a result, its FY 2011 improper payments reporting may be inaccurate and
incomplete, and its efforts to reduce and recover improper payments may be inadequate.


Recommendations, Management’s Response, and Evaluation of
Management’s Response

To improve Ex-Im Bank’s processes for identifying and assessing its risk of improper
payments and to more fully comply with the intent of improper payments legislation, we
recommended that the OCFO:

     1. Revise its procedures to ensure that Ex-Im Bank’s improper payments assessment
        correctly calculates improper payment rates based on those payments that should
        not have been made; were for incorrect amounts, to ineligible recipients, for
        ineligible goods or services, or for goods or services not received; or that are
        otherwise improper payments as defined by IPIA.

            Management’s Response. Management agrees with the recommendation. For
            the FY 2011 improper payment analysis, Ex-Im Bank utilized three separate
            tools to assess the risk of improper payments. Ex-Im Bank will expand the
            analysis and utilize six separate tools in future analysis to assess the risk of
            improper payments. The Bank will enhance the improper payment analysis by
            reviewing the existing procedures and expanding the methodology as follows:

14“Audit of Information Technology Support for Export-Import Bank’s Mission,” January 24, 2012 (OIG-AR-
12-04). The report can be accessed at:
http://www.exim.gov/oig/loader.cfm?csModule=security/getfile&pageid=13558.
15“Audit of Export-Import Bank’s Short-Term Insurance Program,” September 28, 2012 (OIG-AR-12-05). The
report can be accessed at: http://www.exim.gov/oig/upload/Official-20Final-20Report-20-20Audit-20of-
20ST-20Ins-20Program-20120928-1.pdf.

                                       AUDIT REPORT OIG-AR-13-03
                                                   14
                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


      (1) Continue using the risk assessment questionnaire but conduct a more
          thorough review of the answers provided, especially those identified as “Not
          Applicable;”

      (2) Continue a qualitative risk assessment review of the payment controls
          surrounding each of the programs;

      (3) Maintain a list of payments returned to Ex-Im Bank. If there is a significant
          number or dollar amount of returned items, then investigate further the
          reason for the returned payments;

      (4) As recommended, the Bank will develop a methodology to factor into the
          analysis an estimate of insurance claim payments that may have involved
          fraud;

      (5) The Financial Reporting Office will meet with the Asset Management
          Division, the Office of the General Counsel, and the OIG to compile a list of
          newly identified participants of the Bank's programs that have committed
          fraud against the Bank. The list will be checked against payments made
          during the period of analysis to determine if payments were made to any of
          these participants;

      (6) The Financial Reporting Office will review OIG reports issued since the last
          improper payment analysis with a focus on issues identified surrounding the
          payment process.

      If the analysis of the information gathered from the above indicates a significant
      risk of improper payment in any of the Bank's programs, additional steps will be
      performed as required by OMB guidance. The recommendation will be
      implemented for the analysis of the FY 2012 improper payments.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the proposed actions. However, as stated in
      Recommendation 5, reconsideration of quantitative testing and payment
      recapture audits in light of the deficiencies we found in Ex-Im Bank’s processes
      for identifying and measuring its risk for improper payments would further
      strengthen the Bank’s improper payments assessment.

2. Reconsider the results of its FY 2011 risk assessment given the response for the
   operations phase of the loan disbursement process and document either (a) a plan
   to timely address the potential elevated risk of improper loan disbursements, or
   (b) management’s acceptance of the risk.

      Management’s Response. Ex-Im Bank's conclusion of low risk in the direct
      loan disbursement process was based on the qualitative risk assessment review
      of the payment controls surrounding loan disbursements, the risk assessment

                              AUDIT REPORT OIG-AR-13-03
                                          15
                     EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


       questionnaires completed by Operations and Data Quality and the Loan and
       Guarantee Servicing Office, and a review of the returned payment log. With the
       analysis of all of the data taken together, management believes that the loan
       disbursement process does not indicate a significant risk of improper payment.
       In addition, since the FY 2011 analysis there has been no evidence that any of
       the loan disbursements made during the FY 2011 period were improper.

       Evaluation of Management’s Response. We agree that there may not be a risk
       of significant improper payments, as defined by IPIA, within the loan
       disbursement program. However, as stated in the report, one of the two loan
       disbursement risk assessment questionnaire responses did not support a “low”
       risk rating and indicated the potential for elevated risk. Additionally, as stated in
       the report, we question the value of using returned payments – most of which
       were not improper – to measure risk of improper payments, particularly in the
       absence of quantitative testing or payment recapture audits that would detect
       improper payments in the roughly 7,000 payments that were not returned.
       However, management is responsible for assessing and accepting its risk.
       Therefore, the recommendation is resolved and closed for reporting purposes.

3. Modify the method used to score improper payments risk assessment
   questionnaires to ensure that factors that are not applicable are accurately reflected
   in the future.

       Management’s Response. Management agrees that the responses to the
       questionnaires require more in depth analysis after the questionnaire is
       completed. The questionnaires will be more thoroughly reviewed, especially the
       "Not Applicable" responses. The recommendation will be implemented for the
       analysis of the FY 2012 improper payments.

       Evaluation of Management’s Response. Management’s proposed actions are
       responsive; therefore, the recommendation is resolved and will be closed upon
       completion and verification of the proposed actions.

4. Either formulate and include in future improper payments risk assessments, at a
   minimum, a reasonable estimate of fraudulent insurance claim payments based on
   historical information, or obtain OMB’s written approval to continue excluding such
   payments from its improper payments assessment.

       Management’s Response. Management agrees with the recommendation. Staff
       has begun reviewing data on cases closed by the OIG that involved fraud. The
       OCFO will develop a methodology that factors into the improper payment
       analysis an estimate of insurance claim payments made during the analysis
       period that may be fraudulent and therefore improper. The recommendation
       will be implemented for the analysis of the FY 2012 improper payments.




                                AUDIT REPORT OIG-AR-13-03
                                            16
                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the proposed actions.

5. Consider the cost effectiveness and value of conducting payment recapture audits
   and additional periodic testing to prevent and detect improper payments in all
   program areas throughout each fiscal year.

      Management’s Response. Management agrees with the recommendation. If a
      risk assessment shows an increase in the risk of improper payments in any of
      the Bank's programs or if there is a substantial increase in the amount of
      improper payments, the Bank will consider engaging a private sector firm to
      look at the Bank's payment processes and procedures and determine if it is
      beneficial to develop a formal payment recapture audit plan.

      Evaluation of Management’s Response. As stated in the report, agencies are
      required to conduct payment recapture audits for each program and activity that
      expends $1 million or more annually if conducting such audits would be cost
      effective. While we support management’s plan to monitor the need for
      payment recapture audits in the future, we reiterate that management’s decision
      not perform such audits was based, in part, on what the OCFO incorrectly
      identified in its internal guidance – “Ex-Im Bank Process and Procedures for
      Improper Payments” –as a historically “low amount and volume of improper
      payments.” Furthermore, prior to our audit, the OCFO reported that recapture
      audits were unnecessary because “Ex-Im [Bank] typically recovers 100% of
      improper payments.” However, our review demonstrated the payments in
      question were largely those returned to the Bank by the U.S. Post Office and the
      U.S. Treasury due to incorrect payee addresses or routing numbers and, in FY
      2011, were not improper as defined by IPIA.

      OMB memorandum M-11-16, “Issuance of Revised Parts I and II to Appendix C of
      OMB Circular A-123,” April 14, 2011, requires agencies to notify OMB and the
      agency's Inspector General of the decision not to conduct payment recapture
      audits and include any analysis used by the agency to reach this decision. In
      addition, agencies must report in their annual PAR or AFR the justification and
      analysis used to determine that conducting payment recapture audits is not cost
      effective. Because management has decided not to conduct payment recapture
      audits in the near-term and to allow the agreed-to corrective actions to take
      effect, the recommendation is resolved but will remain open pending the OIG’s
      review of Ex-Im Bank’s FY 2012 improper payments assessment and reporting
      activities.




                              AUDIT REPORT OIG-AR-13-03
                                          17
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                           APPENDIX A


Scope and Methodology
 We performed this audit from November 2012 through March 2013 in accordance with
 generally accepted government auditing standards. Those standards require that we plan
 and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
 basis for our findings and conclusions based on our audit objectives. We believe that the
 evidence obtained provides a reasonable basis for our findings and conclusions based on
 our audit objectives.

 Our objectives were to determine whether Ex-Im Bank was compliant with IPIA, as
 amended by IPERA, and to evaluate the accuracy and completeness of Ex-Im Bank’s
 improper payment reporting and efforts to reduce and recover improper payments for FY
 2011. To determine whether Ex-Im Bank identified, reported, and reduced improper
 payments in accordance with IPIA, we reviewed applicable laws, regulations, Bank
 procedures, and guidance issued by the Council of Inspectors General on Integrity and
 Efficiency. In addition, we interviewed Claims and Recoveries staff as well as OCFO
 personnel, including personnel in the Office of the Treasurer. We also reviewed Ex-Im
 Bank’s FY 2012 AFR, responses to its FY 2011 risk assessment questionnaire, and the FY
 2011 Improper Payment Log and supporting documentation, including a list of all FY 2011
 payments produced by the OCFO. We also performed the following tasks:

       Judgmentally selected and reviewed a sample of 25 of 144 payments reported by
        Ex-Im Bank as improper in FY 2011. Our sample totaled $2.7 million, or 73 percent
        of the total $3.7 million reported as improper, and included (where possible) at
        least one returned wire or returned or voided check from each month in FY 2011, as
        reported on the Bank’s Improper Payment Log. We interviewed the Cash Control
        Supervisor and reviewed supporting documentation for the 25 payments to
        determine whether the payments were correctly classified as improper.

       Reviewed the population of FY 2011 payments (7,282 transactions totaling
        $2.7 billion) to identify possible indicators of improper payments and determine
        whether Ex-Im Bank’s reported improper payments exceeded IPIA thresholds.

       Cross-checked Ex-Im Bank’s spreadsheets of FY 2011 proper and improper
        payments to test for data reliability and ensure that payments were reported only
        once.

       Reviewed prior OIG reports and supporting workpapers, including those from the
        “Audit of Information Technology Support for Export-Import Bank’s Mission,” (OIG-
        AR-04, January 24, 2012) and “Audit of Export-Import Bank’s Short-Term Insurance
        Program” (OIG-AR-12-05, September 28, 2012) to identify previously reported

                                   AUDIT REPORT OIG-AR-13-03
                                               18
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


        internal control weaknesses that could impact Ex-Im Bank’s risk of improper
        payments.

       Reviewed prior OIG semiannual reports and information provided by the OIG’s
        Office of Investigations to identify cases of known fraud in the Export Credit
        Insurance Program and determine whether fraudulent insurance claim payments
        identified in FY 2011 were included in Ex-Im Bank’s improper payments
        assessment.


Review of Internal Controls

 We reviewed and evaluated the internal controls associated with Ex-Im Bank’s
 identification and reporting of improper payments. We found internal control deficiencies
 as discussed in this report. Our recommendations, if implemented, should correct the
 weaknesses we identified.


Federal Laws, Regulations, Policies, and Guidance

 We reviewed the following in the course of our audit work:

       Public Law 107-300, Improper Payments Information Act of 2002;

       Public Law 111-204, Improper Payments Elimination and Recovery Act of 2010;

       Executive Order 13520, “Reducing Improper Payments,” November 2009;

       OMB Circular No. A-136 (Revised), “Financial Reporting Requirements,” October 27,
        2011;

       OMB Memorandum M-11-04, “Increasing Efforts to Recapture Improper Payments
        by Intensifying and Expanding Payment Recapture Audits,” November 16, 2010;

       OMB Memorandum M-11-16, “Issuance of Revised Parts I and II to Appendix C of
        OMB Circular A-123,” April 14, 2011; and

       “Ex-Im Bank Process and Procedures for Improper Payments.”


Prior Coverage

 During the last 5 years, the Ex-Im Bank OIG and GAO have issued five reports of particular
 relevance to the subject of this report. Unrestricted reports can be accessed over the



                                   AUDIT REPORT OIG-AR-13-03
                                               19
                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Internet at http://www.exim.gov/oig/reports/audits-and-evaluations.cfm (Ex-Im Bank
OIG) and http://www.gao.gov (GAO).

Ex-Im Bank OIG:

      “Evaluation of Ex-Im Bank’s Compliance with the Improper Payments Elimination
       and Recovery Act of 2010” (OIG-EV-12-01, March 12, 2012)

GAO:

      “Improper Payments: Remaining Challenges and Strategies for Governmentwide
       Reduction Efforts” (GAO-12-573T, March 28, 2012)

      “Improper Payments: Moving Forward with Governmentwide Reduction Strategies”
       (GAO-12-405T, February 7, 2012)

      “Improper Payments: Recent Efforts to Address Improper Payments and Remaining
       Challenges” (GAO-11-575T, April 15, 2011)

      “Improper Payments: Progress Made but Challenges Remain in Estimating and
       Reducing Improper Payments” (GAO-09-628T, April 22, 2009)

In addition, Ex-Im Bank management engaged KPMG LLP to perform an internal audit of
improper payments in FY 2008, prior to the passage of IPERA. The overall objective of the
internal audit was to consider the adequacy of the Bank’s improper payments risk
assessment, compliance with IPIA, and to identify any improvement opportunities. In its
report dated April 30, 2009, KPMG recommended that Ex-Im Bank strengthen its formal
risk assessment for compliance with IPIA. Management concurred with the
recommendation.




                                  AUDIT REPORT OIG-AR-13-03
                                              20
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                     APPENDIX B


Analysis of Ex-Im Bank’s FY 2011 Improper Payment Log
 As shown in the table below, the OCFO determined that 61 wires and 71 checks (or
 92 percent of the 144 payments included on Ex-Im Bank’s FY 2011 Improper Payment Log)
 were improper because the Bank used incorrect payee addresses, account numbers, or
 other payment information, which prevented the payments from being delivered or
 processed. Only nine payments were sent to the wrong vendor, were for incorrect
 amounts, or were duplicate payments and, therefore, were correctly categorized as
 improper payments as defined by IPIA.



     Number of
                                  Reason Categorized as Improper                      Amount
    Transactions
    Returned Wires

          61          Incorrect account number or other payment information          $3,059,652

           1          Cancelled for incorrect amount                                   $236,755

           2          Incorrect vendor*                                                 $84,729

           2          Duplicate payment*                                                 $5,036

    Returned or Voided Checks
                      Check returned due to incorrect address/Payee never received
          71                                                                           $243,507
                      check/Payment could not be processed

           1          Incorrect vendor*                                                 $64,261

           1          Check voided because vendor preferred a wire payment              $25,000

           2          Duplicate payment*                                                 $2,500

           2          Incorrect amount or no payment due*                                $1,704

           1          Check voided because payee was under investigation for fraud         $500

    Total: 144                                                                        $3,723,644



 Table 3. Analysis of Ex-Im Bank’s FY 2011 Improper Payment Log.
 Source: OIG summary of data received from the Ex-Im Bank OCFO.
 *Payments correctly classified as improper.




                                          AUDIT REPORT OIG-AR-13-03
                                                       21
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                            APPENDIX C


Ex-Im Bank’s Improper Payment Risk Assessment Questionnaire

 No.   Risk Assessment Question                                                               Yes   No   N/A
 INTERNAL CONTROL ENVIRONMENT
 1    Do program management and staff adhere to applicable laws and regulations?

 2     Are employees encouraged to bring internal control problems to management’s
       attention?
 3     Does employee training include an emphasis on controls?
 4     Do program management and staff have appropriate levels of competence and
       experience to administer the program?
 5     Are policy and procedures manuals up to date and accessible to the appropriate
       staff?
 6     Is there an emphasis on expediting payments?
 7     Has the majority of the staff been with the payment type more than 1 year?
 RISK ASSESSMENT
 8     Are policy considerations analyzed for their impact on this payment type?
 9     Are risks considered arising from changing needs/expectations of Congress,
       agency officials, and the public?
 10    Are there any anticipated changes in the payment environment, e.g., program
       growth, staffing and/or funding cuts etc.
 11    Are there risks caused by new legislation or regulations?
 12    Are there unmitigated risks associated with major suppliers and contracts?
 13    Are there risks resulting from downsizing of agency operations and personnel?
 14    Are there risks resulting from business process reengineering or redesign of
       operating processes?
 15    Is the program in its first year of operation?
 16    Is the program in its last year of operation?
 17    Are there risks posed by disruption of information systems processing?
 18    Are there risks caused by a lack of backup systems availability?
 19    Are there risks due to highly decentralized program operations?
 20    If there is a heavy reliance on contractors to perform critical agency operations,
       have the risks been mitigated?
 21    Are risks considered that result from the lack of training received by staff?
 22    Is the computer system used to administer the payment type less than 2 years old?
       (A new system may not have encountered every possible transaction/event.)

 23    Has the computer system used to administer the payment type been modified
       within the past 2 years? (A modified system may not have encountered every
       possible transaction/event.)


                                          AUDIT REPORT OIG-AR-13-03
                                                        22
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


No.   Risk Assessment Question                                                                Yes   No   N/A
24    Are the criteria simple for manually computing payments?
25   Is the payment type simple to administer?
INTERNAL CONTROL ACTIVITIES
26   Are strong internal controls (IC) in place that would prevent or detect an improper
     payment or an erroneous element in the payment process?
27   Are routine audits/reviews made of the payment type over an appropriate
     threshold amount?
28   Is access to data, files and programs appropriately controlled?
29   Has the payment type been administered under time-tested/established
     regulations?
30   Are transaction documents properly authorized?
31    Is there an appropriate level of segregation of duties? (Different individuals handle
      different aspects of payment transactions?)
32    Are payments made according to provisions in contracts and grant agreements?
33    Are there methods to ensure that the control activities described in policy and
      procedures manuals are actually applied and applied properly?
34    Has the payment type operated under the appropriate legislation or other major
      program administration for less than 1 year?
35    Do payment controls ensure that goods/services were received/delivered prior to
      payment?
36    Do appropriate checks and certifications of payment documents ensure that
      payment information is correct prior to payment, e.g. amount, payee?
37    Do properly authorized transaction documents have multiple signatures where
      appropriate?
38    Are there limits on single individual authorizations, e.g., authorized to approve
      transactions that are <$5,000?
39    Does more than 10% of the total number of transactions in this payment type
      exceed $5,000?
40    Does the program have a strong system for monitoring sub recipients (if
      applicable)?
41    Are built-in system edits a part of comprehensive controls on automated systems,
      e.g. prepayment and claims processing edits?
42    Are edit reports designed to display questionable transactions or accounts
      according to predefined or ad hoc indicators?
43    Do data file restrictions on automated systems effectively segregate duties?
44    Are specific user profiles a part of the controls on automated systems?
45    Does appropriate system security exist on automated systems as required by the
      Federal Information Security Management Act of 2002?
46   Do comprehensive controls on automated systems include accounts receivable
     subsystems?
47   Do comprehensive controls on automated systems include fraud tracking systems?
INFORMATION AND COMMUNICATION
48   Are there mechanisms in place to ensure that supervisors and employees
     understand the purpose of internal control activities?
49   Are all legislative changes, regulatory developments, political or economic changes
     related to the program reported to management?


                                         AUDIT REPORT OIG-AR-13-03
                                                      23
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


No.   Risk Assessment Question                                                              Yes     No   N/A
50    Is information on all payment discrepancies available on a timely basis to allow
      effective monitoring of transactions and to allow prompt reaction?
51    Is operational information provided to managers so that they may determine
      whether their programs comply with applicable laws and regulations?
52  Does management communicate frequently with internal oversight groups, such as
    senior management councils, and keep them informed of performance risks, any
    other significant events?
MONITORING
53  Are control activities regularly evaluated to ensure that they are still appropriate
    and working as intended?
54  Have prior audit findings requiring corrective actions been resolved?
55    Are any payments made to incorrect payees or ineligible recipients?
56    Are there existing internal control deficiencies (including material weaknesses) in
      the payment type?
57    Have contract audits identified any questioned costs?
58    Have contract audits identified any improper payments >$10,000?
59    Are contract audits performed either internally or by an external organization?
60    Are routine audits and/or reviews performed on the specific payment type
      controls?

Response        TOTAL SCORE FROM ANSWERS ABOVE
Totals
Risk            If Total Score is 0     If Total Score is 12       If Total Score is 29
Assessment      through 11 = LOW        through 28 = MEDIUM        and Greater = HIGH
Results         RISK                    RISK                       RISK
Reviewed By:                            Title:                                              Phone:

Signature:                                                                                  Date:


Ex-Im Bank’s Risk Assessment Scoring Method. Each yes or no response that indicates
elevated risk is counted towards the total risk assessment score. As shown above, if the
total number of such responses is between 0 and 11 (or no more than 18 percent of all
60 questions on the questionnaire), the OCFO rates the overall risk of improper payments
as low. A score between 12 and 28 (or between 20 percent and 47 percent of all
60 questions) equals medium risk. And a score of 29 or greater (or 48 percent or more of
all 60 questions) equals high risk. The OCFO does not eliminate or adjust for responses of
“Not Applicable” when scoring the questionnaire.




                                        AUDIT REPORT OIG-AR-13-03
                                                     24
 ʹͷ   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


                                                                       
                                                         APPENDIX D    
                                                                       
                                                                       




              Management Comments	
           




                 AUDIT REPORT OIG-AR-13-03
                             ʹͷ
March 8, 2013

To:             Rebecca L. Sharek
                Assistant Inspector General for Audits

From:           David M. Sen a  ~~
                SVP and Chief Financial Officer

Re:             Management Response to OIG Report on Improper Payment Analysis

Please find attached management's response to the Office of Inspector General report on
the Bank's Improper Payment Analysis. We appreciate the recommendations made in this
report and recognize the need for ongoing improvement to better identify and recover
improperly made payments as defined by the IPIA. All of the recommendations will be
implemented for the analysis ofFY 2012 improper payments.


      1. Recommendation
         Revise its procedures to ensure that Ex-1m Bank's improper payments assessment
         correctly calculates improper payment rates based on those payments that should
         not have been made; were for incorrect amounts, to ineligible recipients, for
         ineligible goods or services, or for goods or services not received; or that are
         otherwise improper payments as defined by IPIA.

         Management Response
         Management agrees with the recommendation. For the FY 2011 improper payment
         analysis, Ex-1m utilized three separate tools to assess the risk of improper
         payments. Ex-1m will expand the analysis and utilize six separate tools in future
         analysis to assess the risk of improper payments. The Bank will enhance the
         improper payment analysis by reviewing the existing procedures and expanding the
         methodology as follows:

                1. Continue using the risk assessment questionnaire but conduct a more
                   thorough review of the answers provided, especially those identified as
                   "Not Applicable";
                2. Continue a qualitative risk assessment review of the payment controls
                   surrounding each of the programs;
          3. Maintain a list of payments returned to Ex-1m. If there is a significant
             number or dollar amount of returned items, then investigate further the
             reason for the returned payments;
          4. As recommended, the Bank will develop a methodology to factor into the
             analysis an estimate of insurance claim payments that may have involved
             fraud;
          5. The Financial Reporting Office will meet with the Asset Management
             Division, the Office of the General Counsel, and the Office of Inspector
             General to compile a list of newly identified participants of the Bank's
             programs that have committed fraud against the Bank. The list will be
             checked against payments made during the period of analysis to
             determine if payments were made to any of these participants;
          6. The Financial Reporting Office will review OIG reports issued since the
             last improper payment analysis with a focus on issues identified
             surrounding the payment process.

   If the analysis of the information gathered from the above indicates a significant risk
   of improper payment in any of the Bank's programs, additional steps will be
   performed as required by OMB guidance.


2. Recommendation
   Reconsider the results of its FY 2011 risk assessment given the response for the
   operations phase of the loan disbursement process and document either (a) a plan
   to timely address the potential elevated risk of improper loan disbursements, or (b)
   management's acceptance of the risk.

   Management Response
   Ex-1m's conclusion of low risk in the direct loan disbursement process was based on
   the qualitative risk assessment review of the payment controls surrounding loan
   disbursements, the risk assessment questionnaires completed by Operations and
   Data Quality and the Loan and Guarantee Servicing Office, and a review of the
   returned payment log. With the analysis of all of the data taken together,
   management believes that the loan disbursement process does not indicate a
   significant risk of improper payment. In addition, since the FY 2011 analysis there
   has been no evidence that any of the loan disbursements made during the FY 2011
   period were improper.
      3. Recommendation
         Modify the method used to score improper payments risk assessment
         questionnaires to ensure that factors that are not applicable are accurately reflected
         in the future.

         Management Response
         Management agrees that the responses to the questionnaires require more in depth
         analysis after the questionnaire is completed. The questionnaires will be more
         thoroughly reviewed, especially the "Not Applicable" responses.


      4. Recommendation
         Either formulate and include in future improper payments risk assessments, at a
         minimum, a reasonable estimate of fraudulent insurance claim payments based on
         historical information, or obtain OMB's written approval to continue excluding such
         payments from its improper payments assessment.

         Management Response
         Management agrees with the recommendation. Staff has begun reviewing data on
         cases closed by the OIG that involved fraud. OCFO will develop a methodology that
         factors into the improper payment analysis an estimate of insurance claim
         payments made during the analysis period that may be fraudulent and therefore
         improper.


      5. Recommendation
         Consider the cost effectiveness and value of conducting payment recapture audits
         and additional periodic testing to prevent and detect improper payments in all
         program areas throughout each fiscal year.

         Management Response
         Management agrees with the recommendation. If a risk assessment shows an
         increase in the risk of improper payments in any of the Bank's programs or if there
         is a substantial increase in the amount of improper payments, the Bank will
         consider engaging a private sector firm to look at the Bank's payment processes and
         procedures and determine if it is beneficial to develop a formal payment recapture
         audit plan.


cc:      Fred Hochberg
         John McAdams
         Osvaldo Gratacos
         Laura Wohlford
  ʹͻ                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Acknowledgements

 Key	contributors	to	this	report	were	Maria	Tse,	Auditor,	and	Julie	Wong,	Independent	
 Referencer.	
 	
To Report Fraud, Waste, or Abuse, Please Contact:

 Email:	             IGhotline@exim.gov	

 Telephone:	         1‐888‐OIG‐EXIM	(1‐888‐644‐3946)	

 Fax:	               (202)	565‐3988	

 Address:	           Office	of	Inspector	General	
 	                   Export‐Import	Bank	of	the	United	States	
 	                   811	Vermont	Avenue,	NW	
 	                   Suite	138	
 	                   Washington,	DC		20571	
  
  
  
  
  
  
  
  
  
  
  
  
  
                                                 




                                                              




                                   AUDIT REPORT OIG-AR-13-03
                                                ʹͻ
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
